FT:
ft

Ji Q L

No. _

v:_

li

Supreme Court, U.S.
FILED

FEB 0 ^ Za'23
!
OFFICE OF Ti— CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Quincy Taylor

— PETITIONER

vs.

United States of America_ RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
Unlted Statesv Taylor. 2020 U.S.App. LEXIS 33896 (Oct, 27, 2020)
PETITION FOR WRIT OF CERTIORARI

QUINCY

TAYLOR

Federal Prison Camp Fairton
P.0. Box 420
Fairton, New Jersey 08320
B.O.P. Regristration No. 63093-037

RECEIVED
FEB - 9 2021

QUESTION(S) PRESENTED
The Statute 18 U.S.C.924

(c)(1)(A) which states:

Except to the extent that'a -greater minimum

sentence is otherwise

provided by this subsection or by any other provision of law,
amy person who

during and in relation to any crime of violence

or drug trafficking crime(including a crime of violence or drug
trafficking crime that provides for an enhancement punishment
if committed by the use of a

deadly or dangerous weapon or

device) , for which the person may be prosecuted in a court of
of the- United States, uses or carries a firearm, or who,
in furtherance of any such crime, possesses, firearm, shall,
in addition to the punishment provided for such crime of violence
or drug trafficking crimeDOES
The phrase “in furtherance of" requires the Government to
show "some nexus between the firearm and the drug selling
operation."(quoting United StatesvFrady , 245 F.3d 199, 203
(2d.Cir. 2001).
NOTE:
The Fourth Circuit subsequent to the ruling on

petitioner's

request of. a COA on the question, ofineffective Assistance of
Counsel as it relates to 18 USC 924(c)
question

(1)(A) ruled on this

in United States v-Oye, 2020 U.S.App. LEXIS

30265

(Sept. 22,2020 ).
STATING:
18 U.S.C. 924 (c)

provides that any person who, duiring and

in relation to any drug
(i).

United States v Dye,States:
"Under 18 USC 924 (c)(1)(A) , the Government is required to
show a defendant knowingly and unlawfully possesed a firearm
in

Tfurtherance of the

specifiedx drug trafficing crime

(clarifying elements and standard of review). In othere
words ,18 USC 924 (c) requires the Government to present
evidence indicating that the
possession of a firearm furthered
advanced, or

helped foward a drug trafficing crime.

(ii.)

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

United States v Timmons, 283 F.3d 1246 (11th Cir.).
United States vPerex, 2019 US App. LEXIS 14233(llth.)
^tates v Perez > 2019 US App. LEXIS 14233 (11th.)
United States vPerez, 2018 US App LEXIS 7913 (10th.)
United StatesvBailey,2020 US App LEXIS 27476 (4th)
United StatesvDye, 2020 US App LEXIS 30265 (4th.)
United StatesvStrayhorn, 737 F.3d 917 (4th)
United StatesvStinson, 794 F.3d 418 (4th.)
In re Al-Malaki, 2018 US App LEXIS 26595 (4th)
BaileyvUnited. States, 516 US 137 (1995)
Alleyne v United States, 570 US 99 (2013)

STATUTES AND RULES
18 USC 924 (c)(1)(A)

OTHER

(iii.)

5.
5
5
5.
6.
6.
6.

7.
7.
7.
7.

LIST OF PARTIES

|kj| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
United States vTaylor,

2020 U.S.App. LEXIS 33896 ('4th.Cir. 0ct27,2020)
United States v Taylor, 2020 n;
U.S.Add. LEXIS 26997 (4th.fMr. Aug.20,2020;
United States v Taylor, 2019 U.S.Dist.
LEXIS 191503 (S.D.Maryland
Nov. 5,2019).
United States v Taylor, 2019 U.S.Dist.
LEXIS 189033 (S.D.Maryland
Oct. 31,2019).

(iv.).

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

3.
4.

REASONS FOR GRANTING THE WRIT
CONCLUSION

8.
9.

INDEX TO APPENDICES
APPENDIX A
Denial of EnRanc Hearing Oct 27, 2020.Fourth Circuit Court of Appeals

APPENDIX B
Denial of Appeal by the Fourth circuit

APPENDIX C
District Court of Maryland denial of 28 USC 2255
APPENDIX D
Government's Response to the Petitioner's 28 USC 2255 Motion.

APPENDIX E

APPENDIX F

(v. ) .

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
jfcd For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

a

ki reported at 2020 u.s.App. t.f.yts
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
ZAcx/-x i-A ridiscj_______

was

[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was .denied by the United States Court of
Appeals on the following date:
OCt. 27.2020
, and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on__ _________ ---------(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Constitutional Amendment 5

Criminal Actions-Provisions concering

-Due Process and just compensation issues.
Constitutional Amendment 6 - lights of the Accused.
Constitutional Amendment 14 -

equal Protection.

18 U.S.C. 924 (c)(1)(A)- enhancement for actively employing a
gun in the furtherance of a drug crime.

3.

STATEMENT OF THE CASE
The petitioner sold cocaine on ten occassions between August
24, 2016 and 1-March 16, 2017 to
confidential source These sales
averaged $1,000. dollars to $1,400. dollars each.
Petitioner was 47 years old without
any prior convictions. He
Was actiJ^rAj employed, as a bus driver at the age of 47.

In this

capacity he was cleared to drive the bus into Federal Compounds,
In the ten control’...
buys there was never any indication the
Petitioner was carrying a gun. No gun was cited
or mentioned
in the subsequent_government302 reports.
On April 18

2017 the petitioner was returning home from work,
when several F.B.I. agents greated him in the parking lot.
Th ese agents acompanied. him to his apartment where they began-a
search.
In the living room next to the sofa a plastic storage unit
was
discovered which contained cocaine. Then 30 feet away they entered
a closed bedroom door 5 walked
the closet door.

There

across the bedroom 15 feet and opened

they reached into the pockets of the

various clothes. In the overcoat . Jack Bauer, they discovered a
gun.
The Petitioner

was charged with One Count 21 USC 846 and One

Count in violation of 18 USC 924 (c)(1)(A) Possession of a Firearm
in Furtherance of a Drug Trafficking Crime. On December 1, 2017
the Petitioner entered a plea of guilty to both counts upon
the advice of counsel.

4.

Each of these counts were punishable by a Mandatory 5 year sentence.
Petitioner was not informed by counsel of the legal requirements
of a 924 (c)(1)(A) indictment. Futher, he was not aware of a
possible SentencingEnhancement pursuant to the U.S.Sentencing Guidelines.
A reasonable individual would have informed the petitioner that his
Pleading guilty and asking to have a trial could only produce the
same result, that is a 10 year sentence. At trial it would have
been

relatively

easy. Petitoner was not using the gun

in

furtherance of the drug crime. As.a bus driver in Washington DC it
is logical he would have a gun. In fact there was no question that
he legally possessed a gun.
Petitioner filed a 28 USC 2255 with the District Court

claiming

ineffective assistance of counsel and "actual innocence".
A conviction under 924 (c)(1)(A) requires the prosecution
to prove that the firearm was used in furtherance of the drug­
trafficking crime. This requires "the prosecution [to] establish
that

the firearm

helped further, promoted, or advanced the drug

trafficking. United States v Timmons, 283 F.3d 1246, 1252 (11th.'
Cir. 2002).

However, "the

presence of a gun within the defendant's

dominion and control during -a drug trafficking offense is not
sufficient

by itself to sustain a conviction.” id. at 1250,

See also United States v Perez, 2019 U.S.App. LEXIS 14233
May 14, 2019 ,11th.Cir . ) .
924 (c)(1)(A) is not satisfied if defendant s possession of
a weapon " is

coincidental or entirely unrelated to the (drug)

offense. United States v

Perez

2018 U.S.App. LEXIS 7913 (10th. Cir.).

5.

To obtain a 18 USC 924 (c)(1)(A) conviction based on-a conviction
possession of a weapon the government has to prove a viable theory
as to how the gun furthered the drug possession of distribution
(e . g. used to protect the drug dealer or the drugs),
and present
specific , nontheoretical evidence to tie the gun and drug crime
together. United Strates v Thomas, 979 F.3d 809 (Apr.14,2020, 7th.Cir.)
There must be easy and quick access to the weapon. United States
v Swan, 2020 U.S.App.LEXIS 30738 (10th. cir.)
The weapon must be brandished in furtherance- of the drug
crime.

United States v Bailey III

2020 U.S.App. 27476 (2d. Cir.) ,

United states v Muskett, 2020 U.S.App.LEXIS 25883 (2d. Cir.)
The Fourth Circuit recently rule on a case with sustain these
legal conclusions. United States v Dye, 2020 U.S.App. LEXIS 30265
(4th. Cir. Sept. 22,2020). The government
theory

has to presents viable

as to how the possession of the weapon further, aided the

furtherance of teh drug crime.
The Dye case was

reported after the District court denied the

Petitioner's 2255 Motion and after the Fourth Circuit denied
the issuance of a C.O.A.. pribr to this decision, However, the
en banc decision of the Fourth Circuit was post 'this decision,
^rther, there were previous decision that donot support the
District Court denial of the 28 USC 2255 and the Fourth Circuit
Court of Appeals decision to deny the C.O.A. The goverment must
show

a defendant used or carried a firearm and he did so during

and in relation to a drug trafficking crime or crime of violence
United States v strayhorn, 737 F.3d 917 (4th. Cir.),cert, denied

6.

134 S.Ct. 2689, 189 L.Ed. 2d 229 (2014); quoted in United
States v Stinson, 794 F.3d 418 (4th. Gir. 2015); see also
In re Al-Malaki, 2018 U.S.App. LEXIS 26595 (4th.Gir. 2018)
The Supreme Court addressed this precise situation that
exised with the Petitioner. In Bailey v United States, c5"16 TJ.S.
137

116 S.Ct. 501, 133 L.Ed.2d 471 (1995)'. The court held

Ghat the government must prove active employment of a firearm in
order to convict a defendant for using a firearm under 924 (c)(1).
See also , Alleyne v United states , 570 U.S.99, 133 S.Ct. 2151,
186 L.Ed.2d 314 (2013);stated

brandishing is an element of 924 (c).

The government in the Petitioner1s case should have sought
an enhancement under USSG 2K2.2 1(b)(6)(B); which addresses
the question of -if a firearem is found in close proximity to
the d rugs.

( even the question'of close proximity is arguable).

The District Court committed plain errorirr.denying the Petitioner's
2255 motion, the appellate court committed error denying the C.O.A.

7.

REASONS FOR GRANTING THE PETITION
The Petitioner was a 47 year old black man driving a bus in
Washington, DC. He had no criminal record.
This occupation is
inheriently dangerous in any city let alone Washington,DC.
It is
entirely reasonable he would own a weapon.
At no time did the government ever allege the
weapon was
illegal. This,is in itself strange.
Yes, the Petitioner sold, cocaine, Certainly, he was not a major
dealer, if one could even label himcP dealer. Ten controlled buys neted
approximately $10,000.
His weapon was-.-not brandished

used in furtherance of the drug

deal. No mention

no reference to. no presence in ten controlled buys,
This is evidence that the weapon was not connected to the sale of
the drugs.
Petitioner s weapon was not kept so it was available to the
Petitioner. Imagine a buyer entering the living
room of the
Petitione r s apartment and buying cocaine. Suddenly, imagine
the Petitioner requires a gun . He must get up walk accross the living
room , open the bedroom door, cross the bedroom,open the closet
•
door, and then reach into the pcoket of his overcoat and then return
to the living room. If he indeed required a gun that amount of time
probably resolted in his death.
Petitioner s counsel ignored the fact , advised the Petitioner
to entef-a plea of guilty

a f ive year mandatory minimum. He faced i

a five year mandatory minimum for the drugs. The total is then 10
years. Without the 924 charge the guidelines were 41 -46 months.
Why would counsel do this. Going to trial woul^ not produce a

8.

a greater sentence.
The case law does not support this conviction . A serious
violation of Constitutional law has occurred which h:a:s

resulted

in a draconian sentence for the Petitioner.
When the petitioner filed for Compassionate Release the
Governmentresponded it made a tacit admission that the Petitioner
was not guilty of the 924 charge.
The Appellate Court denial of COA is pure error.

CONCLUSION
Issue an Order to the Fourth Circuit Court of Appeals to issue an
Order granting a C.O.A. or whatever this court deems appropriate.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

(V
V S POCH \ VP

9.

